  Office of Inspector General
      Audit Report


ACTIONS NEEDED TO ENSURE ACCURATE
 EXECUTIVE ORDER 13520 REPORTING
        Department of Transportation

         Report Number: FI-2012-004
        Date Issued: November 7, 2011
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Actions Needed To Ensure                                                 Date:    November 7, 2011
           Accurate Executive Order 13520 Reporting
           Department of Transportation
           Report No. FI-2012-004

  From:    Louis King                                                                    Reply to
                                                                                         Attn. of:   JA-20
           Assistant Inspector General for Financial and
             Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
             Chief Financial Officer

           The Federal Government has long been concerned about improper payments 1
           made through its programs and has intensified efforts to eliminate payment errors.
           In March 2010, the Office of Management and Budget (OMB) designated the
           Department of Transportation’s (DOT) Federal Highway Administration (FHWA)
           Federal-Aid Highway Program a high-priority program—one that makes the
           highest dollar value 2 improper payments. OMB based its designation on DOT's
           projection that the Federal-Aid Highway Program had made an estimated
           $1.4 billion in improper payments, or 3.5 percent of its total payments tested for
           fiscal year 2009.

           Executive Order (EO) 13520, “Reducing Improper Payments,” requires each
           Department to submit a onetime report on its high-priority programs, and quarterly
           reports on individual high-dollar improper payments. The EO also requires
           Inspectors General (IG) to review their agencies' reports and provide
           recommendations to agency heads for improvements to the programs and their
           internal controls.

           DOT based its EO 13520 high-priority and high-dollar improper payment reports
           on the results of its annual improper payments testing. To meet our requirements
           1
             An improper payment is any payment that should not have been made or that was made in an incorrect amount under
              statutory, contractual, administrative, or other legally applicable requirements. An improper payment may also be a
              payment that an agency cannot determine is proper or improper due to a lack of sufficient supporting documentation.
           2
             For fiscal year 2010, OMB designated $750 million in improper payments as the threshold for designation as a high-
              priority program, and designated 14 programs. The majority of improper payments occur in these Federal programs.
                                                                                                                 2


under EO 13520, we reviewed the DOT reports to determine: (1) whether the
improper payment amounts reported were accurate and consistent with the annual
improper payments testing, and (2) whether DOT complied with EO 13520's
reporting requirements for high-priority programs and high-dollar overpayments. 3

We conducted this audit in accordance with generally accepted Government
auditing standards, and included tests we considered necessary to detect fraud,
waste, and abuse. A detailed description of our scope and methodology can be
found in Exhibit A.

RESULTS IN BRIEF

DOT's September 2010 report to the Office of Inspector General (OIG) did not
accurately account for high-dollar overpayments and recoveries. While DOT
intended to ensure transparency, it reported amounts that did not need to be
reported as they were under the threshold and understated actual payments
recovered. Furthermore, the report did not agree with the results of the annual
improper payments testing. For example, the report overstated overpayments at
one location by almost $2 million. Both the September 2010 annual report and the
January 2011 quarterly report included high-dollar improper payment amounts
that did not meet OMB's reporting requirements. For example, the annual report
contained payments that did not meet OMB's minimum reporting threshold of
$25,000. We did not identify any high-dollar overpayments that should have been
reported and actual payment recoveries were understated in the report. While we
recognize DOT's conservative approach and its efforts to increase transparency, it
is incumbent upon DOT to accurately estimate improper payments in its programs
in order to better evaluate the effectiveness of its improper payment remediation
efforts.

DOT did not meet a number of reporting requirements for high-priority programs
and high-dollar overpayments. For example, neither of DOT's annual or quarterly
reports met OMB's requirement for reporting of a strategy for the prevention and
recovery of high-dollar improper payments. Also, the Department submitted its
September 2010 report 4 to OIG more than 3 months after the submission deadline
specified in EO 13520. As a result, neither the Department nor OMB can measure
the effectiveness or timeliness of DOT's actions to reduce improper payments.




3
  A high-dollar overpayment is an improper payment to an entity that exceeds the correct amount by $25,000 or more,
   in a single payment or in cumulative payments throughout a quarter.
4
  In May and July 2010, DOT submitted draft versions to OIG of its first reports on high priority programs and high
   dollar improper payments.
                                                                                       3


On March 28, 2011, OMB removed the Federal-Aid Highway Program's
designation as a high-priority program. However, the requirement for DOT to
report quarterly on high-dollar improper payments continues. Accordingly, we are
making a recommendation to assist the Department in its preparation of quarterly
reports on high-dollar improper payments.

BACKGROUND

The Improper Payments Information Act of 2002 5 (the Act) requires Federal
agencies to: (1) review and identify programs susceptible to significant improper
payments; (2) report to Congress the amount and cause of improper payments; and
(3) develop approaches for the reduction of improper payments. To meet the Act's
requirements, DOT annually tests four programs for improper payments—
FHWA's Federal-Aid Highway Program, the Federal Transit Administration’s
(FTA) Formula Grants Program, FTA's Capital Investment Grants Program, and
the Federal Aviation Administration’s (FAA) Airport Improvement Program
(AIP). In its fiscal year 2009 Performance and Accountability Report (PAR) and
fiscal year 2010 Agency Financial Report (AFR), DOT reported these four
programs had more than $21 million in improper payments (see Table 1).

Table 1. Improper Payments Identified During Annual Sample
Testing
                                           2009                2010
                                         Improper           Improper
    Program                              Payments           Payments           Total
    Federal-Aid Highways                $16,317,015          $550,740       $16,867,755
    (FHWA)
    Formula Grants Program                $269,616             $3,803         $273,419
    (FTA)
    Capital Investment Grants            $1,879,124                   0      $1,879,124
    Program (FTA)
    Airport Improvement Program          $2,152,202            $1,312        $2,153,514
    (FAA)
    Total                               $20,617,957          $555,855       $21,173,812
Source: US DOT Performance and Accountability Report for Fiscal Year 2009
        US DOT Agency Financial Report Fiscal Year 2010

In November 2009, President Obama signed EO 13520 which encourages the
elimination of payment error, waste, fraud, and abuse in Government-administered
programs. The EO requires agencies with high-dollar overpayments to describe


5
    Public Law Number 107-300 (2002).
                                                                                                         4


the actions taken or planned to recover improper payments and the actions they
will take to prevent improper payments in the future.

In March 2010, OMB issued Circular A-123 Appendix C, Part III 6 to implement
EO 13520. The Circular prescribes additional requirements for the high-priority
program and quarterly high-dollar improper payments reports. It specifies
improper payment reporting thresholds, and requires agencies to list the program
responsible for each high-dollar overpayment error and the location where each
payment was made. DOT Office of Financial Management officials indicated that
to meet the EO and Circular's reporting requirements, they will report the
improper payments identified during their annual improper payments testing.

In September 2010, DOT's Assistant Secretary for Budget and Programs and Chief
Financial Officer (CFO) submitted to OIG a single report, “Department of
Transportation High Dollar Improper Payments” (Appendix I) for fiscal year
2009, to meet the EO's requirement for quarterly reporting on high-dollar improper
payments and the Circular's requirement for annual reporting on high-priority
programs. The CFO based this report on the results of DOT's annual improper
payment testing during fiscal year 2009. In January 2011, DOT submitted its
report, “Department of Transportation High Dollar Improper Payments for the
Quarter Ending December 31, 2010” (Appendix II) to OMB to meet the EO's
quarterly reporting requirement.

DOT REPORTED HIGH-DOLLAR                                             OVERPAYMENTS                      AND
RECOVERIES INACCURATELY

The September 2010 report to OIG incorrectly cited overpayment amounts and
recoveries and did not agree with the results of annual testing. The report included
improper payment amounts that should not have been reported. We did not
identify any high-dollar overpayments that should have been reported and actual
payment recoveries were understated in the report. DOT overstated the amounts of
high-dollar improper payments because it relied on inaccurate summary schedules.
Specifically, the results of the 2009 improper payments testing were incorrectly
summarized into improper payment schedules used for the preparation of the PAR
and the high-dollar improper payments report. Additionally, DOT incorrectly
applied OMB criteria for reports on high-dollar overpayments. For example, the
September 2010 report:

• Listed a $13.6 million payment to the State of New York as a high-dollar
  overpayment, even though it consisted of three overpayments as well as three


6
    Requirements for Implementing Executive Order 13520: Reducing Improper Payments, March 22, 2010.
                                                                                                                   5


    underpayments which reduced the total amount of the overpayment to
    $11.7 million;

• Contained two incorrect overpayment amounts and locations;

• Understated improper payment recoveries; it identified five recoveries, totaling
  $2,172,905, instead of ten recoveries totaling $2,965,547; and

• Listed eight payments that did not meet the overpayment reporting
  thresholds 7—four payments that were not in excess of 50 percent of the correct
  payment amount, and four payments that were each less than $25,000.

The January 2011 report also included improper payment amounts that did not
meet OMB's reporting requirements. For example, two of the six payments did not
exceed 50 percent of the correct payment amounts and therefore should not have
been reported.

THE DEPARTMENT DID NOT COMPLY WITH THE EO AND
CIRCULAR'S REPORTING REQUIREMENTS

DOT did not meet all reporting requirements established in EO 13520 and OMB
Circular A-123. The EO and OMB circular contain reporting requirements on the
actions taken to prevent or recover high-dollar overpayments. In addition, the
OMB circular requires agencies to list the program responsible for each high-
dollar overpayment error and the location where each payment was made. The EO
required agencies to submit their reports within 180 days of the EO's issuance, or
by May 24, 2010. DOT officials were not fully aware of these reporting
requirements. As a result, DOT did not do the following, as required by the EO or
the Circular:

• Describe a strategy or actions taken to prevent high-dollar improper payments;

• Accurately identify in its September 2010 report 8 the locations of ten grantees
  that received improper payments;

• Meet reporting deadlines; the September report was 113 days late; 9

7
  To require reporting, overpayments must both exceed $25,000 and be in excess of 50 percent more than the correct
   payment amount (OMB Circular A-123, Appendix C, Part III).
8
  The report should describe the city or county and state where the grantee is located.
9
  OIG received the Department’s finalized report on September 14, 2010. The EO required agencies to submit their
   reports on high-dollar programs to their IGs within 180 days of the EO’s issuance. The Department’s report was 113
   days late since it was due by May 24, 2010.
                                                                                 6



• Consistently report payments in its September 2010 report; it reported six
  individual payments to the State of New York as one payment when all other
  locations listed individual payments;

• List in its September 2010 report the FTA program that made each high-dollar
  overpayment; and

• Describe the actions taken to recover improper payments.


Furthermore, DOT did not determine recoverability in a timely manner. More
than 11 months after it completed its program testing for fiscal year 2009, the
Department had not determined the recoverability of 3 of the 29 payments
contained in the report. Still, DOT has indicated that current payment procedures
effectively prevent improper payments. It attributed improper payments identified
in the Federal-Aid Highway program to non-systemic administrative, clerical and
documentation errors. While DOT discussed the strategy to reduce improper
payments in its 2009 PAR and 2010 AFR and developed a Best Practices Guide
for grantees to use to reduce improper payments, this strategy was not discussed in
either the September 2010 or January 2011 reports. Without fully compliant
improper payment reporting, neither the Department nor OMB can measure the
effectiveness or timeliness of DOT's actions or strategy to reduce improper
payments.

CONCLUSION

Reducing improper payments has been designated by OMB as a top priority for all
Federal agencies. Reducing improper payments at DOT is a significant challenge
as the Department makes over $60 billion in payments to grantees annually. While
DOT has taken actions to strengthen its annual improper payment testing and
adopted a conservative approach, DOT needs to take further action to ensure
accurate EO 13520 reporting. Proper action will enable DOT to improve its
controls and minimize the possibility of improper payments, as well as heighten its
vigilance over increasingly scarce Federal funds.


RECOMMENDATION

We recommend that the CFO develop procedures for preparation and issuance of
the quarterly reports on high-dollar improper payments that ensure reporting is
                                                                                  7


consistent with the results of annual improper payment testing, issued in a timely
manner, and in compliance with key reporting requirements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided the Department a draft of this report on August 24, 2011, and
received its written comments on September 20, 2011. DOT's complete response
is included as Appendix III to this report. DOT concurred with our
recommendation and provided appropriate planned actions and timeframes.
Accordingly, we consider our recommendation resolved but open pending
completion of the planned actions.

ACTIONS REQUIRED

DOT's planned action for the recommendation is responsive, and its target action
date is appropriate. Subject to the follow-up provisions in Department of
Transportation Order 8000.1C, we request that DOT provide information
demonstrating completion of its planned action within 10 days after the action has
been taken.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407, or Earl Hedges, Program Director, at (410) 962-
1729.
                                          #

cc:   Martin Gertel, M-1
                                                                               8




EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit from December 2010 through July 2011, in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To address our audit objectives, we reviewed applicable laws and regulations. We
also interviewed departmental personnel and contractors responsible for the
implementation of the Improper Payments Information Act of 2002. Using OMB's
reporting thresholds, we determined whether the reports accurately presented the
highest-dollar improper payment amounts identified during the annual improper
payment testing for fiscal years 2009 and 2010 that DOT and contractors
performed. We also assessed the Department's compliance with the reporting
requirements for high-priority programs and high-dollar overpayments. We
obtained supporting documents on the amounts reported and actions taken as
described in the Department's reports. The documentation included, but was not
limited to; grant agreements, invoices, checks, and payment vouchers. We did not
re-test the propriety of sample items that the Department determined to be proper
payments.




Exhibit A. Scope and Methodology
                                                          9




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                   Title
Earl Hedges                            Program Director

Mark Rielly                            Project Manager

Lakarla Lindsay                        Senior Auditor

Susan Neill                            Writer-Editor

Sharon Ayers                           Referencer




Exhibit B. Major Contributors to This Report
                                                              10


APPENDIX I. DOT SEPTEMBER 14, 2010 (ANNUAL) EO REPORT
MEMORANDUM




Appendix I. DO T September 14, 2010 Annual EO Report M emorandum
                                                              11




Appendix I. DO T September 14, 2010 Annual EO Report M emorandum
                                                              12




Appendix I. DO T September 14, 2010 Annual EO Report M emorandum
                                                              13




Appendix I. DO T September 14, 2010 Annual EO Report M emorandum
                                                              14




Appendix I. DO T September 14, 2010 Annual EO Report M emorandum
                                                                 15


APPENDIX II. DOT JANUARY 20, 2011 QUARTERLY EO REPORT
MEMORANDUM




Appendix II. DO T Januar y 20, 2011 Quarterl y EO Report Memorandum
                                                                 16




Appendix II. DO T Januar y 20, 2011 Quarterl y EO Report Memorandum
                                 17




APPENDIX III. AGENCY COMMENTS




Appendix III. Agency Comment s
                                 18




Appendix III. Agency Comment s
